June 30, 2000

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA

PAUL J. SEEHAVER
EXECUTIVE DIRECTOR, MAIL TRANSPORT EQUIPMENT
 SERVICE CENTER NETWORK PROGRAM

SUBJECT:	       Audit Report – Extra Trip Expenditures at the Dallas Bulk Mail Center
                (Report Number TR-AR-00-008)

This report presents the results of our audit of extra trip expenditures at the Dallas Bulk
Mail Center (Project Number 00PA002TR001). The audit disclosed that 52 percent of
the $9.7 million in fiscal year 1999 extra trip expenditures were charged to Dallas Bulk
Mail Center operations by other facilities and were not controlled by the Dallas Bulk Mail
Center. In addition, the extra trip expenditures controlled by the Dallas Bulk Mail Center
could be reduced by optimizing trailer capacity, processing service change requests
more timely, and increasing oversight of transportation operations. Management
agreed with our findings and recommendations to improve management oversight and
reduce extra trip expenditures at the Dallas Bulk Mail Center. Management’s
comments, in their entirety, are included in the Appendix of this report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Mr. Joseph
Oliva, director, Transportation, at (703) 248-2317 or me at (703) 248-2300.



Ronald K. Stith
Acting Assistant Inspector General
 for Business Operations

Attachment
cc: 	 Paul E. Vogel
      Michael L. Craig
     Martha J. Kyle
     Anthony M. Pajunas
      David E. Roloff
     John R. Gunnels
Extra Trip Expenditures at                         TR-AR-00-008
 the Dallas Bulk Mail Center


                               TABLE OF CONTENTS

Part I

Executive Summary                                          i



Part II

Introduction
   Background                                             1

   Objective, Scope, and Methodology                      1

   Prior Audit Coverage                                   2

Audit Results
  Major Causes of Extra Trips
     Extra Trip Charges by Other Facilities               3

     Utilization of Trailer Space                         4

     Service Change Requests                              6

     Recommendations                                      6

     Management’s Comments                                6

     Evaluation of Management’s Comments                  6


   Management Oversight
      Dispatch Discipline Reviews                         8

     Internal Controls                                    8

     Recommendation                                       9

     Management’s Comments                                9

     Evaluation of Management’s Comments                  9


Appendix. Management’s Comments                          10 

Extra Trip Expenditures at                                                               TR-AR-00-008
 the Dallas Bulk Mail Center


                                          EXECUTIVE SUMMARY
Introduction                         The Office of Inspector General conducted an audit of the
                                     Postal Service’s expenditures for extra trips on highway
                                     contract routes at the Dallas Bulk Mail Center. In fiscal year
                                     (FY) 1999, extra trip expenditures at the Dallas Bulk Mail
                                     Center totaled $9.7 million.

                                     The audit was conducted in response to issues identified by
                                     Transportation managers during the development of our
                                     FY 2000 audit workload plan. Specifically, our objectives
                                     were to determine (1) the major causes of extra trips and
                                     (2) the adequacy of management oversight of extra trip
                                     expenditures.

Results in Brief                     Our audit disclosed that 52 percent1 of FY 1999 extra trip
                                     expenditures were charged to the Dallas Bulk Mail Center
                                     by other Texas facilities. A quality improvement program
                                     test started in 1997 allowed other facilities to charge extra
                                     trip expenditures to the Dallas Bulk Mail Center. As a
                                     result, the Dallas Bulk Mail Center did not have control over
                                     all extra trip expenditures charged to its account.

                                     Extra trips operated by the Dallas Bulk Mail Center occurred
                                     because the center did not have the proper mail transport
                                     equipment to optimize trailer capacity. The Dallas Bulk Mail
                                     Center relied on palletized cardboard boxes that consumed
                                     more trailer floor space than other types of containers and
                                     could not be stacked inside the trailer. Palletized cardboard
                                     boxes were used because other mail transport equipment,
                                     such as over the road containers, were not available from
                                     the Dallas Mail Transport Equipment Service Center.

                                     We were unable to identify specific trips for elimination
                                     because trailer utilization rates in the Transportation
                                     Information Management System were inaccurate.
                                     Utilization rates were generally overstated because postal
                                     employees determined that trailers were loaded to capacity
                                     when only the floor space was covered. These
                                     determinations were subjectively made and did not consider
                                     the cubic capacity of the trailer. This practice produced
                                     unreliable data and prevented managers from optimizing
                                     transportation.

1
    Fifty-two percent equals $5 million of $9.7 million in extra trip expenditures.




                                                              i
Extra Trip Expenditures at                                                                    TR-AR-00-008
 the Dallas Bulk Mail Center



                               As discussed in our previous report on highway contract
                               routes,2 converting regularly scheduled extra trips to regular
                               service could reduce extra trip expenditures. Although the
                               Dallas Bulk Mail Center submitted service change requests
                               to the Distribution Networks office, such requests took up to
                               16 months to be processed and approved. As a result,
                               needed transportation changes were not made in a timely
                               manner.

                               Finally, the Dallas Bulk Mail Center and the Southwest
                               Distribution Networks office did not exercise adequate
                               oversight of extra trip operations. Dispatch discipline
                               reviews were not performed, as required, contributing to an
                               excessive number of extra trips operating on a daily basis.
                               Management stated they were not aware of the requirement
                               to perform these reviews. Performing dispatch discipline
                               reviews can identify routes needing adjustments and other
                               dispatch issues requiring attention. Also, extra trip
                               authorization forms were preapproved by route and left in
                               the Dallas Bulk Mail Center Transportation office. This
                               circumvented case-by-case justification and approval of
                               extra trips. When we brought this issue to the attention of
                               management, officials took immediate action to discontinue
                               the process of preapproving forms.

Summary of                     We made five recommendations to improve management
Recommendations                oversight and reduce the number of extra trips at the Dallas
                               Bulk Mail Center. To strengthen controls over extra trip
                               expenditures, we recommended that the vice president,
                               Southwest Area ensure extra trip costs are charged to the
                               facility requesting the trip, problems with obtaining mail
                               transport equipment are documented, adequate mail
                               transport equipment is provided, timelines are established
                               for processing service change requests, and dispatch
                               discipline reviews are conducted.

                               We also recommended the executive director, Mail
                               Transport Equipment Service Center Network Program
                               ensure the Dallas Bulk Mail Center has the proper mail
                               transport equipment.


2
  September 29, 1999, report on Emergency and Extra Trip Expenditures on Highway Contract Routes (TR-AR-99-
003).




                                                     ii
Extra Trip Expenditures at                                                          TR-AR-00-008
 the Dallas Bulk Mail Center




Summary of                     Management agreed with our recommendations and
Management’s                   provided corrective actions (1) to ensure extra trip costs
Comments                       were charged to the facility requesting the extra trip, (2) to
                               ensure that the Dallas Bulk Mail Center documented
                               problems obtaining adequate mail transport equipment,
                               (3) to establish timelines for processing service change
                               requests’, (4) to ensure adequate mail transport equipment
                               was available, and (5) to conduct dispatch discipline
                               reviews. Management’s comments, in their entirety, are
                               included in the Appendix of this report.

Overall Evaluation of          Management’s comments were responsive to our findings
Management’s                   and recommendations, and planned actions should correct
Comments                       the issues identified in this report.




                                                 iii
Extra Trip Expenditures at                                                          TR-AR-00-008
 the Dallas Bulk Mail Center


                                       INTRODUCTION
Background 	                   Highway contract routes provide regularly scheduled service
                               between postal facilities. If unforeseen transportation
                               needs arise that cannot be met by established routes, the
                               Postal Service can require contractors to perform extra trips
                               on existing routes. In FY 1999, extra trip expenditures
                               totaling $9.7 million were charged to the Dallas Bulk Mail
                               Center.

                               Responsibility for managing extra trip expenditures is
                               currently divided between Networks Operations staff in the
                               field and Transportation staff at processing and distribution
                               centers and bulk mail centers. Purchasing and Materials
                               staff in each area process service changes affecting
                               highway contract routes.

Objective, Scope, and          The objective of the audit was to determine how the Postal
Methodology                    Service could reduce extra trip expenditures at the Dallas
                               Bulk Mail Center. To identify these opportunities, we
                               (1) determined the major causes for extra trips and
                               (2) evaluated the adequacy of management oversight of
                               extra trip expenditures.

                               To determine the major causes for extra trips at the Dallas
                               Bulk Mail Center, we observed operations, identified
                               sources for expenditures, reviewed trailer utilization rates
                               reported in the Transportation Information Management
                               Evaluation System, and reviewed dispatch schedules for
                               regularly scheduled highway routes. We did not determine
                               the causes of trips operated by other facilities that charged
                               extra trip expenditures to the Dallas Bulk Mail Center.

                               To determine adequacy of management oversight of extra
                               trips operated by the Dallas Bulk Mail Center, we reviewed
                               extra trip authorization forms, and interviewed management
                               officials.

                               This audit was conducted between October 1999 and
                               June 2000 in accordance with generally accepted
                               government auditing standards, and included tests of
                               internal controls as were considered necessary under the
                               circumstances. We discussed our findings with appropriate
                               management officials, and included their comments, where
                               appropriate.



                                                 1
Extra Trip Expenditures at                                                        TR-AR-00-008
 the Dallas Bulk Mail Center



Prior Audit Coverage           In our September 29, 1999, report on Emergency and Extra
                               Trip Expenditures on Highway Routes (TR-AR-99-003), we
                               found extra trip rates were excessive because they included
                               fixed costs such as general overhead and insurance for
                               which the Postal Service is already paying contractors as
                               part of regular contract service. Eliminating fixed costs
                               would have produced annual savings of $448,000 at the
                               Dallas Bulk Mail Center, based on FY 1999 extra trip
                               expenditures. We also reported that better monitoring of
                               extra trip expenditures could have led to identifying extra
                               trips that occurred with such frequency that they were
                               “regularly scheduled trips.” We recommended that extra
                               trip rates be established when regular service contracts are
                               negotiated and Networks offices monitor extra trip
                               expenditures. The Postal Service concurred with our
                               findings and agreed to establish a pilot to negotiate extra
                               trip service rates at contract award or renewal and to
                               develop a tracking system to monitor extra trip
                               expenditures.




                                                2
Extra Trip Expenditures at                                                       TR-AR-00-008
 the Dallas Bulk Mail Center


                                     AUDIT RESULTS
Major Causes of Extra          Our audit disclosed that 52 percent of extra trip expenditures
Trips                          were charged to the Dallas Bulk Mail Center by other Texas
                               facilities. Some extra trips operated by the Dallas Bulk Mail
                               Center occurred because it did not have the proper mail
                               transport equipment to optimize trailer capacity. Management
                               relied on 4 foot palletized cardboard boxes to transport mail
                               that consumed far more trailer floor space than other mail
                               transport equipment and could not be stacked inside the trailer.
                               We were unable to identify specific trips for elimination because
                               utilization rates in the Transportation Information Management
                               Evaluation System were inaccurate. Finally, scheduled extra
                               trips ran on a daily basis because service change requests
                               were not processed in a timely manner.

Extra Trip Charges by          About $ 9.7 million in extra trip expenditures were charged to
Other Facilities               the Dallas Bulk Mail Center in FY 1999. However, only
                               $4.7 million, or 48 percent, of this amount supported Dallas
                               Bulk Mail Center operations. The remaining $5 million, or
                               52 percent, comprised extra trips operated by other facilities
                               The Distribution Networks office also charged trips to the bulk
                               mail center that were used to move empty mail transport
                               equipment within the Southwest Area. During 1997 the area
                               Distribution Networks office initiated a quality improvement
                               program (Quality Service End to End) and allowed other
                               facilities to charge their extra trip expenditures against the
                               Dallas Bulk Mail Center’s finance number as a test. As of
                               January 2000 this process was still in effect. Consequently, the
                               Dallas Bulk Mail Center had no control over all expenditures
                               charged to its account. The following table identifies the
                               sources of the Dallas Bulk Mail Center extra trip expenditures in
                               FY 1999:




                                               3
Extra Trip Expenditures at                                                             TR-AR-00-008
 the Dallas Bulk Mail Center



                                               Sources of FY 1999 Extra Trip Expenditures
                                                 Charged to the Dallas Bulk Mail Center

                                                        Source                    Expenditures

                                    Dallas Bulk Mail Center                        $4,769,803

                                    Other Sources:
                                     Distribution Networks Office (for mail         1,557,144
                                     transport equipment)3
                                     Other facilities:
                                       Dallas Processing and Distribution           1,709,924
                                       Center
                                       North Texas Annex                              849,923
                                       Fort Worth                                     367,632
                                       Dallas Airport Mail Center                      79,075
                                       Destination facilities4                        415,183
                                    Total Other Sources                            $4,978,881

                                    Total                                          $9,748,684

                                    Allowing other facilities to charge extra trips to the Dallas Bulk
                                    Mail Center does not provide proper controls over such
                                    expenditures as the Dallas Bulk Mail Center lacks authority over
                                    these facilities. Such costs should be managed by each facility
                                    to place accountability where it belongs.

Utilization of Trailer              The Dallas Bulk Mail Center did not always optimize trailer
Space                               space because mail was transported in palletized cardboard
                                    boxes that consumed more trailer space than other types of
                                    mail transport equipment. As illustrated in the photograph
                                    below, palletized cardboard boxes could not be stacked and
                                    lost their shape once they were loaded.




3
    The contract to transport empty equipment ended January 31, 2000.
4
    Extra trip originated at destination facility.




                                                         4
Extra Trip Expenditures at                                                        TR-AR-00-008
 the Dallas Bulk Mail Center




                               Although management recognized the use of cardboard boxes
                               was inefficient, they were unable to get the proper mail
                               transport equipment, such as over the road containers, from the
                               Dallas Mail Transport Equipment Service Center to optimize
                               space on trailers. While the facility could have purchased
                               larger cardboard boxes, such as postal-paks or stackable west-
                               paks, destinating facilities lacked the proper equipment to
                               unload these containers.

                               We were unable to identify specific trips for elimination because
                               trailer utilization rates in the Transportation Information
                               Management Evaluation System were inaccurate. Trailer
                               utilization data was inaccurate because bulk mail center
                               personnel subjectively determined capacity usage based on
                               floor coverage versus the quantity of mail loaded on the trailers.
                               For example, we observed a trailer leaving the center that was
                               reported as loaded to full capacity when, in fact, only
                               50 percent of the total cubic space of the trailer was filled.
                               However, given that trips to delivery units require specific mail
                               separation, a more accurate measure of trailer utilization may
                               not be possible. For this reason the Dallas Bulk Mail Center
                               and Distribution Networks office need to more frequently review
                               dispatch discipline to ensure existing transportation is
                               optimized.




                                                5
Extra Trip Expenditures at                                                           TR-AR-00-008
 the Dallas Bulk Mail Center


Service Change                 The Dallas Bulk Mail Center extended extra trip service that
Requests                       should have been converted to regular trips. The Postal
                               Service Purchasing Manual states that extra trips may be
                               required only when an unanticipated increase in mail volume or
                               other conditions arise that require the performance of an extra
                               trip. Because these trips had been operating daily over a long
                               period of time, they no longer met the criteria of being
                               “unanticipated.” As a result, service change requests should
                               have been processed to convert these trips to regular service.
                               According to the manager, Transportation Networks, Dallas
                               Bulk Mail Center, service change requests had been submitted;
                               however, the requests were not processed timely. For
                               example, network specialists at the Southwest Area Distribution
                               Networks office took up to 16 months to process and approve
                               service change requests submitted by the Dallas Bulk Mail
                               Center.

                               Savings could be achieved by converting daily extra trips that
                               indicate a long-term need for the regular service. For example,
                               one route had an annual contract rate of $5.2 million with extra
                               trip costs of $1.7 million for FY 1999. The Southwest Area
                               Distribution Networks office made a service change and
                               included the daily extra trips into the regular route resulting in
                               annual savings of approximately $244,000. While this type of
                               savings is not guaranteed, similar savings could occur when
                               daily scheduled extra trips are included into regular routes.

Recommendations 	              We recommend the vice president, Southwest Area
                               Operations:

                                  1. Ensure extra trip costs are charged to the originating
                                     facility requesting the extra trip to facilitate better control
                                     over such costs.

Management’s                   Management agreed with our recommendation. They stated
Comments                       that the Southwest Area office and the Dallas Bulk Mail Center
                               were implementing tracking systems which would charge extra
                               trips to individual facilities, and explained that under the new
                               process the practice of allowing other facilities to charge extra
                               trips against the Dallas Bulk Mail Center would be terminated.
                               Management projected implementation by November 2000.




                                                6
Extra Trip Expenditures at                                                       TR-AR-00-008
 the Dallas Bulk Mail Center



Recommendation                    2.	 Require the Dallas Bulk Mail Center to document
                                      problems with obtaining adequate mail transport
                                      equipment and forward to the Distribution Networks
                                      office for appropriate action.

Management’s 	                 Management agreed with our recommendation and stated that
Comments 	                     Dallas Bulk Mail Center documented requirements would be
                               monitored so that the Dallas Bulk Mail Center would be
                               supplied with necessary equipment.

Recommendation                    3. Establish timelines to process service change requests.

Management’s                   Management agreed with our recommendation. They stated
Comments                       that they had established a timeline of 74 days from inception
                               to disposition to process transportation service requests.

Recommendation 	               We recommend the executive director, Mail Transport
                               Equipment Service Center Network Program:

                                  4. Ensure adequate mail transport equipment is provided to
                                     the Dallas Bulk Mail Center.

Management’s                   Management agreed with our recommendation. They stated
Comments                       that nationally they had repositioned more than 1,100 over the
                               road containers to the Dallas Bulk Mail Center from locations
                               outside the Southwest Area and would continue to rebalance
                               mail transport equipment until the Dallas Bulk Mail Center was
                               supplied with requirements. Management stipulated that peak
                               seasonal demand and spot shortages would occasionally cause
                               requirements to exceed supply, but that their expectation was
                               that routine equipment needs would be met under normal
                               operating conditions.

Evaluation of                  Management’s comments are responsive to our findings and
Management’s                   recommendations. We believe that the actions, taken and
Comments                       planned, should correct the issues identified in our report.




                                               7
Extra Trip Expenditures at                                                             TR-AR-00-008
 the Dallas Bulk Mail Center



Management Oversight	 Our audit disclosed that management personnel did not
                      schedule or perform required dispatch discipline reviews, or
                      ensure extra trip authorization forms were properly completed
                      and authorized.

Dispatch Discipline	                According to the Postal Service’s M-22 Handbook,5 both
Reviews 	                           Distribution Networks offices and processing facilities should
                                    perform dispatch discipline reviews. These reviews assess
                                    whether mail volumes are actually moved as planned to meet
                                    intended transportation windows and that transportation
                                    provides the best possible service at the most cost-effective
                                    rate. However, both management from the Southwest Area
                                    Distribution Networks office and the Dallas Bulk Mail Center
                                    stated they were not aware of the requirement to perform
                                    dispatch discipline reviews. By not completing the required
                                    reviews, daily scheduled extra trips continued to operate for
                                    long periods of time. For example, although mail volume might
                                    justify occasional extra service, four routes operated daily extra
                                    trips, supporting a need for a service change. Performing
                                    dispatch discipline reviews can identify routes needing
                                    adjustments and other dispatch issues requiring attention.

Internal Controls                   Extra trip authorization forms were not properly completed and
                                    authorized. These forms are payment documents used to
                                    compensate contractors for extra trip service. The Dispatch
                                    Quality Students Guide states properly completed forms and
                                    documentation are required for payment and performance
                                    tracking purposes. In order to expedite the approval process,
                                    forms were preapproved by route and left in the Transportation
                                    office at the Dallas Bulk Mail Center. This practice
                                    circumvented the case-by-case justification and approval of
                                    extra trips. When we brought this issue to the attention of
                                    management at the Dallas Bulk Mail Center they discontinued
                                    the process of preapproving forms.




5
    Handbook M-22, Dispatch and Routing Policies issued in October 1994.




                                                         8
Extra Trip Expenditures at                                                      TR-AR-00-008
 the Dallas Bulk Mail Center



Recommendation	                We recommend the vice president, Southwest Area
                               Operations:

                                  5. Require that the Networks Distribution office and the
                                     Dallas Bulk Mail Center perform required dispatch
                                     discipline reviews, document results, and follow-up on
                                     the effectiveness of corrective actions taken in response
                                     to the recommendations.

Management’s                   Management agreed with our recommendation. They stated
Comments                       that dispatch discipline reviews began May 20, 2000, and that
                               findings are being documented. Management also stated that
                               reviews will be conducted every four weeks until such time as
                               proper procedures are followed; that subsequent reviews will be
                               conducted quarterly; and that the Dallas Bulk Mail Center will
                               conduct semiannual reviews in accordance with the Dispatch
                               and Routing Policies Handbook.

Evaluation of                  Management’s comments are responsive to our findings and
Management’s                   recommendations. We believe that the actions, taken and
Comments                       planned, should correct the issues identified in our report.




                                               9
Extra Trip Expenditures at                             TR-AR-00-008
 the Dallas Bulk Mail Center


                     APPENDIX. MANAGEMENT’S COMMENTS




                                   10
Extra Trip Expenditures at          TR-AR-00-008
 the Dallas Bulk Mail Center




                               11
Extra Trip Expenditures at          TR-AR-00-008
 the Dallas Bulk Mail Center




                               12
Extra Trip Expenditures at          TR-AR-00-008
 the Dallas Bulk Mail Center



Major Contributors to
the Report




                               13
